                                                                      United tates Department of tate
                                                                      and the Broadcasting Board of Governors

                                                                      Office of Inspector General

                                                                          DEC 1 5 2011
  SENSITVE BUT UNCLASSIFIED

  MEMORANDUM

 TO:                 IRM - Ms. Susan Swart

 FROM:               OIG - Harold W.      GeiSe~
 SUBJECT:            Memorandum Report - Improvements Needed in Information Technology
                     Contingency Planning, ISP-I-12-04

            The Office of Inspector General (OIG) identified issues with information technolo
                           in 20 of the 50 ins                    (b) (5)
(b) (5)




         A properly documented and tested IT contingency plan has a direct impact on whether a
 bureau or post can operate effectively after an unforeseen incident. Information systems are
 vulnerable to a variety of disruptions, from short-term power outages or disk drive failures to
 equipment destruction. While some system vulnerabilities can be minimized, it is virtually
 impossible to eliminate all the risks to an information system. Effective IT contingency planning-
 including thorough testing of the plan-is essential, to mitigate the risk of system and service
 unavailability.

            An IT   contingency planning process involves several steps:
               •     developing a contingency planning policy;
               •     conducting a business impact analysis;
               •     identifying preventive controls;
               •     creating contingency strategies;
               •     performing test and training exercises; and
               •     maintaining and updating the contingency planning document on a regular basis. I




                                         SENSITIVE BUT UNCLASSIFIED



  I   National Institute of Standards and Technology Special Publication 800-34, Revision 1, Chapter 3, Contingency
      Planning Guide for Federal Information Systems, May 20 I O.
                                        SENSITIVE BUT UNCLASSIFIED
                                                    -2-

          Proper IT contingency planning was crucial to several overseas posts that dealt with
  unforeseen, catastrophic incidents in the last year. The earthquake and tsunami in Japan, for
  example, highlighted the importance of post personnel reviewing IT operations and assessing which
  critical functions and systems would be required in the event of an emergency. In a "lessons learned"
  document prepared for the Bureau ofInformation Resource Management (IRM), Embassy Tokyo
  cited preparation as a key to their ability to resume critical operations after the natural disaster. As
  stated by Embassy Tokyo's information management officer, the level of advanced IT preparation
  made it easier for them to set up their alternate communications site. In addition to having a
  complete and pretested IT contingency plan, the embassy described the importance of having all
  required equipment, contact information, and instructions ready and distributed. All these elements
  are necessary for a smooth recovery.

 inspection Findings

             Given the importance of maintaining telecommunications and IT operations in the aftermath
                        .     OIG selected IT conti            . as an area of          . for 20 I 0 and
           (b) (5)
(b) (5)




            (b) (5)
 (b) (5)                                                                             sts are requ    to
  provide for an off-site storage location in a U.S. Goverrunent approved and controlled facility, to
  minimize the potential for complete loss of programs and data in an emergency. In a catastrophic
  event, it is imperative that posts have their backup media stored in another location, preferably one
  that is not subject to the same envirorunental concerns as the primary location.
            (b) (5)
(b) (5)
                                     According to 12 FAM 622.3-2 d., domestically, the system
  manager-m coo mahon WI               information systems security officer and the data center
  manager-will coordinate the IT contingency plan with the emergency action plan, to ensure that
  any emergency response procedures specified in the contingency plan are consistent with the
  emergency action plan. Abroad, the information management officer and the regional security
  officer will coordinate both plans in conjunction with the data center manager and the system
  manager to ensure consistency.




                                     SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED
                                            -3-


        In accordance with 12 F AM 613 .11 and 5 FAM 121.1, the information management officer
is responsible for the overall management of contingency planning at overseas posts, including
ensuring that the IT contingency plan is fully coordinated with the post's emergency action plan.
Domestically, the system owner is responsible for ensuring that contingency plans are developed and
maintained for each system and application, per 5 FAM 825 b.(3). However, in accordance with 5
F AM 822 (2), the responsibility for contingency planning ultimately lies with IRM to ensure the
availability of IT systems and operations that support the Department's diplomatic, consular, and
management operations.

         The lack of a properly developed and tested IT contingency plan that is linked with overall
emergency preparedness processes could be detrimental to a post's or bureau's recovery efforts
following an unforeseen incident. During the IT contingency planning process-including drafting,
testing, and updating-information management personnel are able to identify and address deficiencies.
The planning process also provides a sound training environment, enabling emergency personnel to
become familiar with potential emergency situations. Without such a process, bureaus and posts are
vulnerable to the loss of availability of network systems, data, and communications capabilities.

A vailable Resources

       The Department has several resources for employees seeking information on IT contingency
planning. These include an online Foreign Service Institute (FSI) course on developing, maintaining,
and implementing an IT contingency plan. Contingency planning also is included in the FSI IRM
Tradecraft course, which focuses on the basic responsibilities of information management officers.
Additionally, IRM's Office oflnformation Assurance Intranet site has templates, frequently asked
questions, and basic guidance on contingency planning.

        Even though these resources are readily available, the Department has not held assigned
personnel within bureaus and posts accountable for complying with the requirements for IT
contingency planning. IRM has no definitive means of ensuring that employees complete IT
contingency plans and address all elements identified in Department regulations. As mentioned in
IRM's Office of Information Assurance Web site, system owners are currently required to provide
IT contingency planning test results for reportable systems and applications as part their Federal
Information Security Management Act of2002 compliance. However, this requirement does not
apply to all bureaus and posts for their IT contingency planning components.

        If IRM were to implement and enforce a tracking mechanism, it could help the Department
ensure that all responsible parties are developing, updating, and testing IT contingency plans.
Including IT contingency planning requirements as a rating factor in the performance appraisals for
responsible system owners and information management personnel also would motivate responsible
individuals to fulfill this critical element in protecting the Department's networks and systems.

                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED
                                             -4-

 Including IT contingency planning requirements as a rating factor in the performance appraisals for
 responsible system owners and information management personnel also would motivate responsible
 individuals to fulfill this critical element in protecting the Department's networks and systems.

         Further, the Department should include the completion and testing of IT contingency plans as
 factors in the methodology for determining risk scores for bureaus and posts, in applications such as
 iPost (a tool that allows authorized users to access enterprise network performance and system
 security monitoring data). Currently, the risk scores are calculated using elements such as patch
 management, antivirus, and cyber security awareness training statistics. If the Department were to
 include IT contingency planning as part of the risk scoring in iPost or another application, the
 information management personnel at bureaus and posts would have an additional incentive to
 comply with contingency planning requirements.

 Recommendation 1: The Bureau oflnformation Resource Management should implement and
 enforce a tracking mechanism to document whether or not bureaus and posts have complied with
 information technology contingency planning requirements. (Action: IRM)

 Recommendation 2: The Bureau of Information Resource Management should include the
 development and testing of contingency plans as criteria in its risk scoring methodology for site
 health of posts and bureaus. (Action: IRM)


(b) (6)




 Enclosures:
        Compliance Information and Instruction Sheet




                                 SENSITIVE BUT UNCLASSIFIED
(b) (5)
(b) (5)
